No. 19-546
IN THE SUPREME COURT OF THE UNITED STATES
________________
DOUGLAS BROWNBACK, ET AL., PETITIONERS
v.
JAMES KING
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE PETITIONERS, via e-mail and first-class mail, postage prepaid, this
19th day of June 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 12786 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
June 19, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 19, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0546
BROWNBACK, DOUGLAS, ET AL.
JAMES KING

PATRICK M. JAICOMO
INSTITUTE FOR JUSTICE
901 N. GLEBE RD
STE. 900
ARLINGTON, VA 22203
616-831-1700
PJAICOMO@IJ.ORG

